Attorneys for Petitioners
Jeffrey B. Wall
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

202-514-2217

SupremeCtBriefs@USDOJ.gov
Party name: Donald J. Trump, President of the United States, et al.
Attorneys for Respondents
Aimee Athena Feinberg
Counsel of Record

California Department of Justice
1300 I Street
Sacramento, CA 95814

916-210-6003

Aimee.Feinberg@doj.ca.gov
Party name: State of California
Joshua A. Klein
Counsel of Record

California Department of Justice
Office of the Solicitor General
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413

510-879-0756

joshua.klein@doj.ca.gov
Party name: California and New Mexico
Dror Ladin
Counsel of Record

American Civil Liberties Union Foundation
125 Broad Street, Fl 18
New York, NY 10004
dladin@aclu.org

Party name: Sierra Club & Southern Border Communities Coalition

212-284-7303

